 Office of Inspector General
       Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2012 AND 2011
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2013-008
         Date Issued: November 2, 2012
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    November 2, 2012
           Audited Financial Statements for
           Fiscal Years 2012 and 2011, Saint Lawrence
           Seaway Development Corporation
           Report Number: QC-2013-008

  From:    Louis C. King                                         Reply to
                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Saint Lawrence Seaway Development
           Corporation Administrator

           I respectfully submit our report on the quality control review (QCR) of the Saint
           Lawrence Seaway Development Corporation’s (SLSDC) audited financial
           statements for fiscal years 2012 and 2011.

           The audit of SLSDC’s financial statements as of and for the years ended
           September 30, 2012, and September 30, 2011, was completed by Chiampou Travis
           Besaw & Kershner LLP, of Amherst, New York (see Attachment), under contract
           to SLSDC. The contract required the audit to be performed in accordance with
           generally accepted Government auditing standards and Office of Management and
           Budget Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” as
           amended.

           Chiampou Travis Besaw & Kershner LLP concluded that the financial statements
           present fairly, in all material respects, the financial position of SLSDC as of
           September 30, 2012, and September 30, 2011, and the results of its operations and
           its cash flows for the years then ended, in conformity with U.S. generally accepted
           accounting principles. The report did not include any reportable internal control
           deficiencies or instances of reportable noncompliance with laws and regulations
           tested.

           We performed a QCR of Chiampou Travis Besaw & Kershner LLP’s report and
           related documentation. Our QCR, as differentiated from an audit performed in
                                                                                 2


accordance with generally accepted Government auditing standards, was not
intended for us to express, and we do not express, an opinion on SLSDC’s
financial statements or conclusions about the effectiveness of internal controls or
compliance with laws and regulations. Chiampou Travis Besaw & Kershner LLP
is responsible for its report dated October 12, 2012, and the conclusions expressed
in that report. However, our QCR disclosed no instances in which Chiampou
Travis Besaw & Kershner LLP did not comply, in all material respects, with
generally accepted Government auditing standards. Because Chiampou Travis
Besaw & Kershner LLP did not make any recommendations, a response to this
report is not required.

We appreciate the cooperation and assistance of representatives of SLSDC and
Chiampou Travis Besaw & Kershner LLP. If we can answer any questions or be
of any further assistance, please call me at (202) 366-1407, or George Banks,
Project Manager, at (410) 962-0186.

Attachment

                                         #
                                                                                                                                                                   3
 REPORT OF INDEPENDENT AUDITORS






                                                                                                                                 C~arl~ W.   Chi<'lmpou, CPA. JD

               ~    ChiampouTravis                                                                                                        Rob~rt i_ Trdvis.. CPA
                                                                                                                                     Kelly G. Resaw, CPA, (Vt\

               ..., Besaw &Kershner LLP                                                                                              Eugene G. Kefs.hner, CPA
                                                                                                                                         Gerald F Pullano, CPA
                                                                                                                                      D. S<ott Sulhed.wd, CPA
                         CERT IFIED PUBLIC ACCOUNTANTS & CONSULTANTS
                                                                                                                                    Stephen R. Bracy, CPA. JD
                                                                                                                                            Jon K Pelli~h. CPA
                                                                                                                                       Eric D. Colc.a, CPA. (VA
               45 Br y• ot Wood> North   I Amhcm I   New York 14228   I   Phone 716 630 2400 Fa> 716 630 2401   I <hiampou.com           Mike Sc.haffstall, CPA
                                                                                                                                   Garret R. Alexin, (PA. MBA

                         INDEPENDENT AUDITORS' REPORT

                         To the Administrator of the
                         Saint Lawrence Seaway Development Corporation
                         Massena, New York

                         We have audited the accompanying statements of financial position of the Saint Lawrence Seaway Development
                         Corporation (the "Corporation"), a wholly-owned U.S. Government corporation, as of September 30, 2012 and 2011,
                         and the related statements of operations and changes in cumulative results of operations, cash flows, and changes in
                         equity of the U.S. Government for the years then ended and the statement of budgetary resources and actual expenses
                         for the year ended September 30, 2012. These financial statements are the responsibility of the Corporation's
                         management. Our responsibility is to express an opinion on these financial statements based on our audits.

                         We conducted our audits in accordance with auditing standards generally accepted in the United States of
                         America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
                         Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
                         "Audit Requirements for Federal Financial Statements", as amended. Those standards require that we plan and
                         perform the audit to obtain reasonable assurance about whether the financial statements are free of material
                         misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
                         the financial statements. An audit also includes assessing the accounting principles used and significant estimates
                         made by management, as well as evaluating the overall financial statement presentation. We believe that our
                         audits provide a reasonable basis for our opinion.

                         In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
                         position of the Saint Lawrence Seaway Development Corporation as of September 30, 2012 and 2011, and the
                         results of its operations and its cash flows for the years then ended in conformity with accounting principles
                         generally accepted in the United States of America.

                         In accordance with Government Auditing Standards, we have also issued our report dated October 12, 20 I 2, on
                         our consideration of Saint Lawrence Seaway Development Corporation's internal control over financial reporting
                         and on our tests of its compliance with certain provisions of laws, regulations, contracts, and grant agreements
                         and other matters. The purpose of that report is to describe the scope of our testing of internal control over
                         financial reporting and compliance and the results of that testing, and not to provide an opinion on internal control
                         over financial reporting or on compliance. That report is an integral part of an audit performed in accordance with
                         Government Auditing Standards and should be considered in assessing the results of our audit.

                         Accounting principles generally accepted in the United States of America require that the management's
                         discussion and analysis and performance measures and results information on pages 3 through 23 be presented to
                         supplement the basic financial statements. Such information, although not a part of the basic financial statements,
                         is required by the Governmental Accounting Standards Board, who considers it to be an essential part of financial
                         reporting for placing the basic financial statements in an appropriate operational, economic, or historical context.
                         We have applied certain limited procedures to the required supplementary information in accordance with
                         auditing standards generally accepted in the United States of America, wh ich consisted of inquiries of
                         management about the methods of preparing the information and comparing the information for consistency with
                         management's responses to our inquiries, the basic financial statements, and other knowledge we obtained during
                         our audit of the basic financial statements. We do not express an opinion or provide any assurance on the
                         information because the limited procedures do not provide us with sufficient evidence to express an opinion or
                         provide any assurance.


                            CLrG
                         October 12, 20 12
                                                             L~}\~LLf



20   |   Saint Lawrence Seaway Development Corporation
4
                                                                                                                       REPORT OF INDEPENDENT AUDITORS






                                                                                                                           Charle~ W. Chidmpou. CPA. JO

•       ChiampouTravis                                                                                                              RobertJ T1avis, CPA
                                                                                                                               Kelly G Besaw, CPI\, CVA

    Y   Besaw&KershnerLLP                                                                                                      Eugene G. Kershner, CPA
                                                                                                                                 Gerald F. Pullano, CPA
                                                                                                                                D. Scan SllthPdand, CPA
         CERTIFIE D PU BLIC ACCOUNTANTS & CO NSULTANTS                                                                         Stephen R. Brady, CPA. JD
                                                                                                                                       Jon K. Pe-l fish. CPA
                                                                                                                                 Eri c D. Colca, CPA. CVA
45 Bryant Woods North   I   Amherst   I   Nc>w York 14228   I Phone 716 630 2400   Fax 716 630 2401   I chiampou.com               Mike Schaff!>ta ll. CPA
                                                                                                                             Garret R. Alexin. CPA, MBA



                REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE
                AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN
                ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

                To the Administrator of the
                Saint Lawrence Seaway Development Corporation
                Massena, New York

                We have audited the financial statements of Saint Lawrence Seaway Development Corporation (the
                "Corporation"), as of and for the year ended September 30, 2012, and have issued our report thereon dated
                October 12, 2012. We conducted our audit in accordance with auditing standards generally accepted in the
                United States of America; the standards applicable to financial audits contained in Government Auditing
                Standards, issued by the Comptroller General of the United States; and Office of Management and Budget
                (OMB) Bulletin No. 07-04, "Audit Requirements for Federal Financial Statements", as amended.

                Internal Control over Financial Reporting

                Management of the Corporation is responsible for establishing and maintaining effective internal control over
                financial reporting. In planning and performing our audit, we considered the Corporation's internal control over
                financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
                the financial statements. We obtained an understanding of the design effectiveness of internal controls,
                determined whether they have been placed in operation, assessed control risk, and performed tests of the
                Corporation 's internal controls. We limited our internal control testing to those controls necessary to achieve the
                objectives described in OMB Bulletin No. 07-04. We did not test all internal controls relevant to operating
                objectives as broadly defined by the Federal Managers' Financial Integrity Act of 1982, such as those controls
                relevant to ensuring efficient operations. Our audit was not for the purpose of expressing an opinion on the
                effectiveness of the Corporation's internal control over financial reporting. Accordingly, we do not express an
                opinion on the effectiveness of the Corporation's internal control over financial reporting.

                A deficiency in internal control exists when the design or operation of a control does not allow management or
                employees, in the normal course of perfonning their assigned functions, to prevent, or detect and correct
                misstatements on a timely basis. A material weakness is a deficiency, or a combination of deficiencies, in internal
                control such that there is a reasonable possibility that a material misstatement of the entity's financial statements
                will not be prevented, or detected and corrected on a timely basis.

                Our consideration of internal control over financial reporting was for the limited purpose described in the first
                paragraph of this section and was not designed to identify all deficiencies in internal control over financial
                reporting that might be deficiencies, significant deficiencies, or material weaknesses. We did not identify any
                deficiencies in internal control over financial reporting that we consider to be material weaknesses, as defined
                above.

                 Compliance and Other Matters

                 As part of obtaining reasonable assurance about whether the Corporation' s financial statements are free of
                 material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
                 contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
                 determination of financial statement amounts. However, providing an opinion on compliance with those
                 provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The results of
                 our tests disclosed no instances of noncompliance or other matters that are required to be reported under
                 Government Auditing Standards.

                 This report is intended solely for the information and use of the Advisory Board , management of Saint Lawrence
                 Seaway Development Corporation and certain other designated U.S. Government Agencies and is not intended to
                 be and should not be used by anyone other than these specified parties.




                 October 12, 2012




                                                                                                                           Fiscal Year 2012 Annual Report      |   21

 Saint Lawrence Seaway 
 

Development Corporation
 
 

   FISCAL YEAR 2012 ANNUAL REPORT


CONTENTS

 1   From the Acting Administrator
 3   Financial Highlights for Fiscal Year 2012
 7   Operational Initiatives
 9   Environmental Initiatives
11   Trade Development Initiatives
14   Management Initiatives
18   Fiscal Year 2012 Performance Measures and Results
19   Corporation’s Statement on Internal Accounting and Administrative Control System
20   Report of Independent Auditors on the Financial Statements
22   Statements of Financial Position
24   Statements of Operations and Changes in Cumulative Results of Operations
25   Statements of Cash Flows
26   Statement of Budgetary Resources and Actual Expenses
27   Statements of Changes in Equity of the U.S. Government
28   Notes to Financial Statements
36   Advisory Board and Organizational Chart
37   Contacts



Authority                                                                 Mission Statement
The U.S. Saint Lawrence Seaway Development Corporation                    The SLSDC operates and maintains the U.S. infrastructure and
(SLSDC), a wholly-owned government corporation and an                     waters of the St. Lawrence Seaway, while performing trade
operating administration of the U.S. Department of                        development activities focused on economic development for
Transportation (DOT), is responsible for the operations and               the Great Lakes St. Lawrence Seaway System. Its mission is to
maintenance of the U.S. portion of the St. Lawrence Seaway                serve the marine transportation industry by providing a safe,
between Montreal and Lake Erie. This responsibility includes              secure, reliable, efficient, and competitive deep draft
maintaining and operating the two U.S. Seaway locks located               international waterway, in cooperation with the Canadian
in Massena, N.Y., and vessel traffic control in areas of the St.          SLSMC.
Lawrence River and Lake Ontario. In addition, the SLSDC
performs trade development functions designed to enhance                  Vision Statement
Great Lakes St. Lawrence Seaway System utilization.
Maritime commerce on the Great Lakes Seaway System                        The SLSDC will be a model federal agency, leading the Great
annually sustains more than 225,000 U.S. and Canadian jobs,               Lakes Seaway System as the safest and most efficient,
$14.1 billion in personal income, $33.6 billion in                        competitive, technologically advanced, and environmentally
transportation-related business revenue, $6.4 billion in local            responsible marine transportation system in the world.
purchases, and $4.6 billion in federal, state, provincial, and
local taxes. The binational waterway also provides                        Core Organizational Values
approximately $3.6 billion in annual transportation cost                  Accountability, Competitiveness, Customer Focus, Dedication,
savings compared to competing rail and highway routes.                    Diversity, Excellence, Integrity, Operational Efficiency,
The St. Lawrence Seaway is an international waterway, and                 Relevance, Service, and Quality.
the SLSDC interacts directly with numerous Canadian
government and private entities as it carries out its mission.
The SLSDC coordinates its activities with its Canadian
counterpart, the St. Lawrence Seaway Management
Corporation (SLSMC), particularly with respect to rules and
regulations, overall day-to-day operations, traffic management,
navigation aids, safety, environmental programs, operation
dates and trade development programs. The unique binational
nature of the Seaway System requires 24-hour, year-round
coordination between the two Seaway Corporations.                                       Saint Lawrence Seaway Development Corporation
                                                                                                U.S. Department of Transportation
 
 

The SLSDC’s policy headquarters is located in Washington,                                   1200 New Jersey Avenue, SE, Suite W32-300
 
 

D.C. The operational staff and facilities are located in                                             Washington, D.C. 20590
 
 

Massena, N.Y., including the two U.S. Seaway locks                                              (800) 785-2779 • (202) 366-0091


(Eisenhower and Snell).                                                                            www.greatlakes-seaway.com
 
 

                                                                                                  www.facebook.com/usdotslsdc
 
 

                                                                                                    FROM THE ACTING ADMINISTRATOR




From the Acting Administrator



I
   n accordance with the Chief Financial Officers Act of 1990            and academia attended the
   and the Comptroller General’s Government Auditing                     two-day meeting of the Great
   Standards, I am pleased to present the annual management              Lakes St. Lawrence Seaway
report and financial audit of the Saint Lawrence Seaway                  Ballast Water Collaborative
Development Corporation (SLSDC) for the fiscal year (FY)                 that was held on August 2-3,
ending September 30, 2012.                                               2012, in Duluth, Minn. This
                                                                         was the sixth meeting of the Collaborative, which came together
The first section of the report was prepared by the SLSDC to             in 2009 to facilitate the exchange of information and cultivate
provide information on the agency, its mission, and the success          relationships among academia, scientists, the shipping industry,
of its performance measures. The second section consists of FY           policymakers, and other stakeholders.
2012 audited financial statements with associated notes and the
reports of Chiampou Travis Besaw & Kershner, LLP.                        Great Lakes/Seaway Ballast Water Working Group The 2011
                                                                         Summary of Great Lakes Seaway Ballast Water Working Group
FY 2012 marked another successful year for SLSDC                         (BWWG) report was released in February 2012 examining the
operations as vital safety, reliability, and management                  U.S./Canada Great Lakes Seaway System ballast water ship
accountability performance measures were met. In addition, the           inspection program. The BWWG consists of the SLSDC,
SLSDC completed the fourth year of its Asset Renewal Program             SLSMC, U.S. Coast Guard and Transport Canada. The report
(ARP), which was developed to modernize the U.S. Seaway                  found that 100 percent of all ocean-going ships bound for
infrastructure, including the two U.S. Seaway locks in Massena,          Seaway System ports from outside U.S. or Canadian waters in
N.Y. Finally, 2012 saw increased commercial traffic growth               2011 received a ballast tank exam.
through the St. Lawrence Seaway and significant investments by
ports and carriers throughout the Great Lakes Seaway System.             European Seaway Trade Mission The Seaway led a Great
                                                                         Lakes/Seaway delegation of 14 U.S. and Canadian stakeholders
There are several noteworthy agency accomplishments to highlight:        on a trade mission to Antwerp and Ghent, Belgium in June. The
                                                                         mission provided the delegation with the opportunity to
Draft Information System (DIS) Technology In July 2012, the
                                                                         participate in the Journal of Commerce’s annual Breakbulk
SLSDC and Canadian St. Lawrence Seaway Management
                                                                         Europe Conference attended by nearly 4,000 officials, educate
Corporation, introduced the latest technological innovation for          new contacts about the advantages the Seaway System provides
Seaway commercial users – the Draft Information System (DIS).            for getting cargo into the heartland of North America, and learn
This new technology enhances safety and increases cargo-                 from industry experts about the European Union’s future plans
carrying efficiency on the St. Lawrence Seaway by up to three            for bioenergy and coal.
additional inches of sailing draft by providing mariners with real-
 

time information on current and projected distances between a            SLSDC Facebook Page The SLSDC was excited to launch its 
 

vessel’s keel and river bottom. The St. Lawrence Seaway is the           Facebook page (www.facebook.com/usdotslsdc) in May 2012, 

first inland waterway in the world to implement DIS technology           and looks forward to continuing to share important information, 
 

into its operations and vessels equipped with this new technology        offer Seaway-related content, and interact with Seaway 
 

carried nearly 400 metric tons of additional cargo on each transit.      stakeholders through with this new information portal. 
 

SLSDC Asset Renewal Program Several major infrastructure                 To learn more about the latest Seaway developments, 
 

projects were completed in FY 2012 including upstream miter              programs, and activities, please visit our binational website 
 

gate rehabilitation at Snell Locks, structural rehabilitation of the     at www.greatlakes-seaway.com. We look forward to continuing 
 

Seaway International Bridge, modernization of the emergency              our efforts to provide the commercial shipping industry with a 
 

vertical lift gate at Eisenhower Lock, and the purchase of               safe, efficient, competitive, and environmentally-friendly 
 

important equipment to help revitalize our infrastructure. During        commercial waterway. 
 

FY 2012, the SLSDC obligated $15.8 million on 32 ARP projects. 
 

Great Lakes/Seaway Ballast Water Collaborative More than 

70 representatives from the shipping industry, ballast water 
 
                                     Craig H. Middlebrook
treatment technology industry, state and federal governments,                                        Acting Administrator


                                                                                                         Fiscal Year 2012 Annual Report   |   1
FINANCIAL HIGHLIGHTS




                 SELECTED FINANCIAL INDICATORS*
                 (in thousands of dollars)
                                                                                                                     Change
                 For the Fiscal Years Ended September 30                                 2012      2011         $              %
                 Operating Revenues                                                     24,350    21,303    3,047             14
                  Appropriations expended                                               23,490    20,542    2,947             14
                  Other                                                                    860       760      100             13
                 Operating Expenses                                                     17,842    26,356   (8,515)            (32)
                  Personnel services and benefits                                       12,635    13,118     (483)             (4)
                  Other                                                                  5,207    13,239   (8,032)            (61)
                 Imputed Financing and Expenses
                  Imputed financing                                                       899      1,016     (117)            (12)
                  Imputed expenses                                                        899      1,016     (117)            (12)
                 Total Assets                                                          135,955   125,299   10,656              9
                 Time Deposits in Minority Banks                                        10,248    10,714     (466)             (4)
                  Short-term                                                             8,212     8,878     (666)            (8)
                  Long-term                                                              2,036     1,836      200             11
                 Interest Income from Minority Banks                                      118       162       (44)            (27)
                 *Rounding may affect the addition of rows and columns in the table.




2   |   Saint Lawrence Seaway Development Corporation
                                                                                                             FINANCIAL HIGHLIGHTS




Financial Highlights for Fiscal Year 2012
 
 





T
       he financial statements have been prepared to report the     costs decreased $8 million. Personnel services and benefits
       financial position and results of operations of the Saint    represented 71 percent of the Corporation’s operating expenses
       Lawrence Seaway Development Corporation (SLSDC or            in FY 2012.
Corporation), pursuant to the requirements of the Chief Financial
Officers Act of 1990.                                               Other costs of $5.2 million included $4 million for other
                                                                    contractual services; $659,000 for supplies and materials;
Corporation Financing                                               $221,000 for travel and transportation of persons and things;
                                                                    $217,000 for rent, communications, and utilities; and $120,000
Until 1987, the Corporation was a self-sustaining entity and        for equipment not capitalized.
financed its operations and investments in plant and equipment
by charging tolls to users of the two U.S. Seaway locks. Toll       The Corporation employed 128 people as of September 30,
rates were established jointly with and collected by The St.        2012, including no temporary employees.
Lawrence Seaway Authority (now known as The St. Lawrence
Seaway Management Corporation, or SLSMC), with the U.S.             Imputed Financing and Expenses
share remitted to the Corporation. With the enactment of the
                                                                    Effective in 1997, the Corporation was required to recognize and
Water Resources Development Act of 1986, P.L. 99-662, which
                                                                    record the cost of pension and post-retirement benefits during
created the Harbor Maintenance Trust Fund (HMTF), the
                                                                    employees’ active years of service, based on cost factors
SLSDC became an appropriated agency. Although the U.S.
portion of Seaway tolls was still collected, the Act required the   provided by the Office of Personnel Management (OPM). These
U.S. Treasury to rebate the U.S. toll collections to users.         costs are recorded as an expense paid by another entity, OPM,
Subsequent legislation, effective October 1, 1994, waived the       offset by an imputed financing source to the receiving entity, the
billing and collection process of the U.S. tolls. However, the      Corporation.
SLSDC still recognizes the requirement under the 1959 Tariff of
Tolls agreement between Canada and the U.S. to negotiate            Total Assets
Seaway toll levels with the SLSMC.                                  The Corporation's financial position continues to remain sound
                                                                    with total assets of $136 million. Plant, property, and equipment
Operating Revenues                                                  are valued at $91 million.
Operating revenues, excluding imputed financing, totaled
$24.3 million in Fiscal Year (FY) 2012, a $3 million increase.      Time Deposits in Minority Banks and Interest Income
Appropriations expended, representing the amount of the HMTF
                                                                    A key asset of the Corporation is time deposits in minority
expended for operating purposes, increased $2.9 million while
                                                                    banks, totaling $10.2 million at year-end. A decrease in short-
other revenues increased $100,000.
                                                                    term deposits of $666,000 was partially offset by an increase in
                                                                    long-term deposits of $200,000. Fewer funds invested, due to
Operating Expenses
                                                                    fewer banks participating in the program, and lower interest rates
Overall operating expenses of $17.8 million, excluding              led to a 27 percent decrease in interest on deposits in minority
depreciation and imputed expenses, decreased by $8.5 million.       banks. The interest income is an important financing source for
Personnel services and benefits decreased $500,000 while other      the Corporation.



                                                                                                    Fiscal Year 2012 Annual Report   |   3
FINANCIAL HIGHLIGHTS




Unobligated Balance                                                  navigation channel or to the size of the two existing U.S. locks.
The Corporation had an unobligated balance on September 30,          In FY 2012, the SLSDC obligated $15.8 million in other-than­
2012 of $16 million, comprised of $3.2 million of unused             personnel, including accrued expenditures and undelivered
borrowing authority and $12.8 million in financial reserves. The     orders, for Year Four ARP projects. ARP other-than-personnel
reserve is maintained to finance emergency or extraordinary          accrued expenditures, not including undelivered orders, totaled
expenditures to ensure safe and uninterrupted use of the Seaway,     $10 million and primarily includes expenditures of $2.4 million
a policy affirmed by the Congress in Appropriation Committee         for culvert valve machinery, $2 million for the upstream miter
reports. The funds on deposit in minority banks were principally     gate rehabilitation at Snell Lock, $1.4 million for floating plant
built up from toll income in excess of cash outlays prior to April   upgrades, $1 million for the Seaway International Bridge
1, 1987, when the Corporation was a self-sustaining entity, and      rehabilitation, $834,000 for maintenance dredging, $553,000 for
are invested in insured deposits consistent with Executive Order     downstream miter gate rehabilitation, $347,000 for the spare gate
11625 (October 13, 1971).                                            storage and assembly area rehabilitation at Snug Harbor,
                                                                     $282,000 to make final repairs and adjustments to the vertical lift
Agency Operations                                                    gate at Eisenhower Lock, $184,000 for replacement of the
                                                                     underground storage tank at the Maintenance Building with
Other-than-personnel expenditures for Agency Operations              aboveground tank, $182,000 for the replacement of double-skin
totaled $3.3 million. Specific operating expenditures for Agency     culvert valves with single-skin valves, and $140,000 for
Operations included $524,000 for special operating projects;         installation of a new ice flushing system at Snell Lock.
$387,000 for general operating expenses; $153,000 for lock
inspection and maintenance; $135,000 for building maintenance,       ARP Project No. 4: Both Locks – Culvert Valve Machinery –
and $128,000 for equipment, vehicle, and vessel maintenance.         Upgrade to Hydraulic Operation – Hohl Industrial Services
                                                                     completed work to upgrade the north side valve operating
SLSDC’s Asset Renewal Program                                        machinery at both Eisenhower and Snell Locks to hydraulic
                                                                     operation. Upon completion of the work it was determined that
As part of its FY 2009 budget request to Congress, the SLSDC         due to an error in the design, which was completed by a third
developed an Asset Renewal Program (ARP) to address the long­        party, the new machinery would not open the valves to the full
term asset renewal needs of the U.S. Seaway infrastructure. A        open position. The problem was investigated, a solution was
perpetual infrastructure asset, such as a lock, requires a capital   found, and Hohl Industrial completed work to correct this
investment equivalent to its original cost over its design life,     problem for the north filling valve at Eisenhower Lock. Hohl
which is typically 50 years, in order to sustain itself. The U.S.    Industrial has also commenced fabrication of components for the
portion of the St. Lawrence Seaway was built in the late 1950s at    2013 winter upgrade of the south side valve operating machinery
an original cost of $130 million. Prior to the start of the ARP in   at both locks.
FY 2009, only $47 million in capital expenditures had been
invested in the U.S. Seaway locks since they opened in 1959.         ARP Project No. 31: Both Locks – Rehabilitate Upstream Miter
                                                                     Gates – Kubricky Construction completed work for
The 58 projects included in the current ARP are estimated at         rehabilitating the upstream miter gate at Snell Lock which
$181 million and address various needs for the two U.S. Seaway       included replacing miter and quoin contact blocks, diagonals,
locks, the Seaway International Bridge connecting Ontario and        gate anchorage assemblies, pintles, bushings, and rubber gate
New York, maintenance dredging, operational systems, and             seals. C&S Engineers inspected the work to ensure specification
Corporation facilities and equipment. None of these investments      conformance. The Chesapeake Machine Company fabricated
will result in increases to the authorized depth or width of the     parts for the miter gate rehabilitation work.

4   |   Saint Lawrence Seaway Development Corporation
                                                                                                                FINANCIAL HIGHLIGHTS

ARP Project No. 12: Corporation Equipment – Upgrade /               ARP Project No. 18: Eisenhower Lock – Vertical Lift Gate –
Replace Floating Plant – Continental Construction began work        Replace Wire Ropes – B-S Industrial worked with SLSDC
to upgrade multiple systems on the SLSDC’s “Grasse River”           Maintenance personnel to make final repairs and adjustments to
gatelifter. This work included replacing the mooring winches,       the emergency vertical lift gate that could not be completed before
ballast valves with actuators, pumps, and an air compressor;        Eisenhower Lock had to open for the 2012 navigation season.
upgrading the sanitary system; and improving the below-deck
                                                                    ARP Project No. 55: Underground Storage Tank at
access and egress. Marine Systems Corporation completed work
                                                                    Maintenance Building – Replace with Aboveground – T.R.
to design and prepare specifications, drawings, and cost
                                                                    Weniger completed removal of existing underground unleaded
estimates for upgrades to the SLSDC’s buoy barge.
                                                                    gasoline and diesel fuel storage tanks and construction of a
ARP Project No. 6: Seaway International Bridge – Perform            fueling station with aboveground unleaded gasoline and diesel
Structural Rehabilitation and Corrosion Prevention – Abhe and       fuel storage tanks with dispensers in a building at the
Svoboda continued to blast clean and paint the south span of the    Corporation’s maintenance facility.
Seaway International Bridge and LiRo Engineers continued to
                                                                    ARP Project No. 7: Both Locks – Culvert Valves – Replace with
monitor the work to ensure specification conformance. The
                                                                    Single-Skin Valves – Corporation personnel installed one single-
contractor completed blast cleaning and painting the north tower
                                                                    skin culvert valve with strut/stem to replace the original
and Canadian side span and commenced work on the Canadian
                                                                    double-skin filling valve at the south side of Snell Lock during
viaduct, which will complete the work on the south span. The
                                                                    the winter of 2011. The U.S. Army Corps of Engineers is
work on the Canadian viaduct is being funded by Seaway
                                                                    performing physical modeling of the new single-skin valve
International Bridge Corporation toll revenues and not through
                                                                    design to determine how best to resolve issues with that design
the SLSDC’s ARP.
                                                                    before installing the second single-skin valve, that has already
ARP Project No. 17: Navigation Channels – Dredge U.S.               been purchased but not installed, or before ordering any
Sectors to Maintain Design Grade and Dispose of Sediments –         additional valves.
White Lake Dock and Dredge continued to dredge river bottom
                                                                    ARP Project No. 41: Snell Lock – Install Ice Flushing System
sediments from the navigation channel at the International
                                                                    Technologies – Parsons Brinckerhoff completed the final designs,
Tangent and in the Intermediate Pool between Eisenhower and
                                                                    specifications, drawings, and cost estimates for the installation of
Snell Locks to ensure that vessels can pass safely at the Seaway-
                                                                    an ice flushing system at Snell Lock.
specified maximum draft. Parsons Brinckerhoff continued to
monitor the work to ensure specification conformance.
                                                                    Significant Future Costs and Anticipated
ARP Project No. 2: Both Locks – Rehabilitate Downstream             FY 2013 Accomplishments
Miter Gates – The Chesapeake Machine Company fabricated
parts for the rehabilitation work on the down-stream miter gates    Included in the SLSDC’s FY 2013 budget request to Congress
at both Eisenhower and Snell Locks.                                 was a five-year ARP Capital Investment Plan. For the FY 2013­
                                                                    2017 time frame, the Seaway ARP includes 39 projects
ARP Project No. 32: Snug Harbor – Rehabilitate Spare Gate           estimated at $94.8 million, 23 of which are multi-year projects,
Storage and Assembly Area – Tioga Construction completed            with total funding for each year of the plan constrained to
work to repair a failed section of sheetpile retaining wall along   funding targets for those years as estimated and approved by the
the north side of the spare gate storage and assembly area.         Office of Management and Budget (OMB).


                                                                                                   LEFT: The M/V H. Lee White, American
                                                                                                   Steamship Company, transited
                                                                                                   through the U.S. locks several times
                                                                                                   in the 2012 navigation season.




                                                                                                    Fiscal Year 2012 Annual Report        |   5
FINANCIAL HIGHLIGHTS




                    RIGHT: Preparing for installation of a
                    new single skin culvert valve at the
                    upstream south side of Snell Lock.


The Corporation’s FY 2013 budget request included 28 Year-             project is for improving the pavement and drainage along lock
Five ARP projects totaling $16 million. Some of the major              approach walls as well as the roadways, public parking, and
projects include:                                                      work areas at all Corporation facilities. In Upstate New York, the
                                                                       damage to pavements caused by winter conditions is significant.
ARP Project No. 41: Snell Lock – Install Ice Flushing System           If repairs are not made before the damage is too severe, complete
Technologies (Capital Project) ($3,000,000) – This multi-year          replacement of the pavement, down to and often including the
project will result in the installation of an ice flushing system at   base materials, is required at a much higher cost.
Snell Lock similar to the one already in operation at Eisenhower
Lock. The project is critical to the safe and efficient operation of   ARP Project No. 42: Both Locks – Miter Gates – Structural
Snell Lock during the waterway’s opening and closing periods           Rehabilitation (Capital Project) ($765,000) – This project is to
when ice is present. With today’s larger ships transiting the          blast clean and paint the miter gates at both locks to prevent
Seaway, the lock must be flushed almost completely free of ice         further corrosion of these structures. They were last cleaned and
before a vessel can be allowed to enter the locks because of the       painted 30 years ago.
limited space between the vessels and the lock walls. Currently,
ice is flushed from the Snell Lock chamber by utilizing the lock       ARP Project No. 15: Eisenhower Lock Highway Tunnel –
filling valves, exposing them to very high water flow/velocity for     Rehabilitate (Capital Project and Non-Capital Maintenance
long periods of time. This causes the valves to vibrate and, in        Project) ($750,000) – This is an ongoing project to maintain the
some instances, incur damage.                                          highway tunnel which goes through the upper sill area of
                                                                       Eisenhower Lock, providing the only access to the north sides of
ARP Project No. 43: Both Locks – Miter Gate Machinery –                both Eisenhower and Snell Locks, to the New York Power
Upgrade / Replace (Capital Project) ($2,600,000) – This project        Authority's Robert Moses Power Project and to the New York
is for replacing the operating machinery for the miter gates at        State Park on Barnhart Island. This project includes grouting to
both locks. This machinery is more than 50 years old and needs         limit the water leaking into the tunnel, upgrading the tunnel
to be upgraded to ensure its continued reliability. The upgrade        lighting, replacing damaged and missing tiles from the walls and
will include new hydraulic operating equipment to match the            ceiling, replacing deteriorated and damaged gratings and railings,
improvements made at the Canadian Seaway locks at the                  stabilizing and repairing wingwalls at the tunnel approaches and
Welland Canal and at other locks in the United States.                 clearing tunnel drains which are becoming plugged with
                                                                       concrete leachate products. Due to the fact that this tunnel is the
ARP Project No. 29: Eisenhower Lock – Walls, Sills, and                only means of access to the facilities noted above, any problems
Culverts – Rehabilitate Concrete (Capital Project) ($2,000,000) –      that would make it necessary to close the tunnel for repair would
This project is to replace deteriorated/damaged concrete at            have very significant impacts.
Eisenhower Lock. This includes concrete that was of poor
quality when placed during original construction and concrete          ARP Project No. 26: Corporation Facilities – Upgrade Storage
that has been damaged by freeze-thaw cycles and by vessel              for Lock Spare Parts (Capital Project) ($750,000) – This project
impacts. This project includes resurfacing the mass concrete that      is for constructing shelters and buildings for storage of lock spare
forms the locks walls as well as filling and emptying culverts and     parts and equipment to prevent them from corroding. Many of
the gate sills by replacing concrete to depths ranging between         these items are currently not stored under cover and/or are stored
approximately 8 inches and 24 inches.                                  in old storage sheds that are in need of repair or replacement.
ARP Project No. 14: Corporation Facilities – Replace Paving
and Drainage Infrastructure (Capital Project) ($900,000) – This

6   |   Saint Lawrence Seaway Development Corporation
                                                                                                      OPERATIONAL INITIATIVES




Operational Initiatives
 
 





Seaway Agencies Make Available Draft Information                and the size of the vessel, an additional three inches of draft
System Vessel Safety Technology                                 could mean transporting as much as 360 additional metric
                                                                tons per voyage. In July and August 2012, 12 vessels safely
In July 2012, the SLSDC and Canadian SLSMC jointly              completed 29 transits through the Seaway using the
introduced the availability of a new technology to enhance      DIS technology.
safety and increase cargo-carrying efficiency on the St.
Lawrence Seaway by providing mariners with real-time            SLSDC Maintains 100 Percent Inspections of
information on current and projected distances between a
                                                                Foreign Vessels Entering the St. Lawrence Seaway
vessel’s keel and river bottoms. Known as the Draft
Information System (DIS), the new onboard technology will       Under the Enhanced Seaway Inspection (ESI) program, the
reduce the potential for groundings and allow ships to carry    SLSDC inspects all ocean vessels on their initial transit into
more cargo by better taking advantage of the available water    the St. Lawrence Seaway. The inspection focuses on safety
levels. The Seaway is the first inland waterway in the world    and environmental protection issues and occurs in Montreal,
to implement this technology.                                   Quebec, before the vessel enters the Seaway and U.S. waters.
The SLSDC and SLSMC have always required a minimum              In March 1997 the SLSDC and the U.S. Coast Guard (USCG)
safety margin between the ship’s keel and river bottom          signed a Memorandum of Understanding (MOU) to develop
(under-keel clearance) that vessels must maintain while         the program of coordinated vessel inspection and associated
transiting the waterway. The DIS technology provides a          enforcement activities to expedite the safe transit of shipping
more precise way of measuring that clearance by giving          through the Great Lakes St. Lawrence Seaway System. This
mariners real-time operational and navigational information     MOU was developed in conjunction with the Canadian
while the vessel is in transit. The DIS provides vessel         SLSMC and Transport Canada and continues to guide Seaway
operators with accurate data on river bottom contours and       maritime policies and procedures.
water levels along with the vessel’s speed and heading.         ESI inspections are jointly performed by the SLSDC and the
As a result, mariners will have a greater ability to            SLSMC marine inspectors and cover both Seaway-specific
implement effective course changes or other required            fittings as well as port state control items identified by the
reactions in transit.                                           USCG and Transport Canada as critical for the vessel to
Over the past several years, the two Seaway agencies, as well   transit the Seaway/Great Lakes. In the event major deficiencies
as Seaway carriers and technology vendors, worked together      are identified, Transport Canada and the USCG are notified
to plan, test, and implement DIS technology on the St.          and the vessel is detained in Montreal until the deficiencies
Lawrence Seaway. For three seasons, the SLSDC and SLSMC         are cleared.
conducted a pilot program to allow fully-loaded vessels with
                                                                The proactive approach and continued improvement of the
DIS technology onboard to sail the Montreal-Lake Ontario
                                                                inspection program has been exceptionally successful in
section of the Seaway at 26 feet, 9 inches, or three inches
                                                                reducing the number and frequency of incidents both on the
above the maximum allowable draft.
                                                                St. Lawrence River and in and around the lock facilities. In
Although use of the DIS is currently an optional requirement    addition, the inspection program has eliminated the practice
for transiting the St. Lawrence Seaway, ships equipped with     of duplicative inspections, allowing for a more seamless and
the new technology can travel the binational waterway more      efficient transit of the Seaway and provides an excellent
safely, with more cargo. Depending on the commodity carried     location for repair resources, if required.

                                                                                                Fiscal Year 2012 Annual Report    |   7
OPERA




ABOVE: M/V Baie St. Paul makes her maiden voyage on the Great Lakes Seaway System.       The SLSDC’s goal for performing inspections of all foreign-
                                                                                         flag vessels on their initial Seaway transit each year was
                                                                                         achieved during the 2011 navigation season, with 231
                                                                                         inspections conducted by SLSDC personnel. As of September
                                                                                         30, 176 vessel inspections had been completed in 2012.

                                                                                         SLSDC Continues Role on Great Lakes Regional
                                                                                         Waterways Management Forum
                                                                                         In FY 2012, the SLSDC continued to play a key role in the
                                                                                         Great Lakes Regional Waterways Management Forum, a
                                                                                         group of U.S. and Canadian federal representatives who work
                                                                                         cooperatively to identify and resolve waterways management
                                                                                         issues that involve the Great Lakes region. The Forum
                                                                                         specifically reviews issues across multiple jurisdictional zones
                                                                                         and/or those involving international issues and is further
                                                                                         tasked with developing operational solutions that improve the
BELOW: The annual emergency response exercise was held at the Seaway Maintenance         use and effectiveness of the Great Lakes.
Facility in Massena, N.Y. with a boom deployment training exercise held at Snell Lock.
The exercise was a joint effort between the United States Coast Guard, the SLSDC, the
St. Regis Mohawk Tribe, and the Mohawk Council of Akwesasne.
                                                                                         SLSDC Hosts Annual Emergency Exercise;
                                                                                         Updates Emergency Response Plan
                                                                                         The SLSDC sustains an Emergency Response Plan that
                                                                                         enhances the Corporation’s ability to respond to any vessel
                                                                                         incident. The SLSDC works closely with local, state, and
                                                                                         federal agencies to prepare for a quick and safe response to
                                                                                         mitigate the impact of an accident or oil spill on the local
                                                                                         environment and on Seaway trade and commerce. Annual
                                                                                         training and drills are practiced to ensure that resources are
                                                                                         adequate for an effective response. Most training and drills are
                                                                                         multi-agency led and attended by local response agencies and
                                                                                         environmental groups.
                                                                                         The SLSDC conducted a boom deployment exercise on
                                                                                         October 11, 2011 with representatives of the St. Regis
                                                                                         Mohawk Tribe. In addition, the SLSDC conducted a
                                                                                         thorough review of its Emergency Response Plan resulting
                                                                                         in a complete update of the document to make it more user
                                                                                         friendly. Distribution of the updated plan was completed in
                                                                                         April 2012.

8   |   Saint Lawrence Seaway Development Corporation
                                                                                                     ENVIRONMENTAL INITIATIVES
                                                                                                                      SECTION




Environmental Initiatives
 
 





Federal Report Highlights Continued Effectiveness                  entering the St. Lawrence Seaway in 2011, 100 percent of ballast
of the Great Lakes Seaway System Ballast Water                     water reporting forms were screened to assess ballast water
Inspection Program                                                 history, compliance, voyage information, and proposed discharge
                                                                   location. In 2011, Transport Canada issued four Letters of
In FY 2012, a U.S. government report showed the continued          Warning for vessels found with discrepancies in its ballast water
effectiveness of the current Great Lakes Seaway ballast water      management plan, records, or reports. These letters are used for
management regime during the 2011 navigation season. This          minor first-time offenses with a warning of possible assessment
was evident in both the number of ballast tank inspections of      of a fine if not corrected. BWWG agencies issued Letters of
oceangoing commercial ships entering the Great Lakes St.           Retention for 60 vessel transits involving 223 tanks. Rather than
Lawrence Seaway System from outside U.S. or Canadian               retain non-compliant ballast water, three vessels altered course to
waters, as well as the extent of compliance with ballast water     enable satisfactory exchange. Verification boardings were
management requirements.                                           conducted on every outbound vessel issued a Letter of Retention.
                                                                   In 2011, each of these vessels received a verification boarding
The 2011 Summary of Great Lakes Seaway Ballast Water               and one vessel was found to be out of compliance. The SLSDC
Working Group released by the USCG examined the U.S.­              issued a Notice of Violation and fined the vessel owner $3,000.
Canada Great Lakes Seaway System ballast water ship
inspection program. The report found that 100 percent of all       In 2008, the SLSDC implemented regulations requiring all
ocean-going ships bound for the Seaway System ports from           oceangoing ships with no ballast in their tanks to conduct
outside U.S. or Canadian waters in 2011 received a ballast tank    saltwater flushing of their empty ballast water tanks before
exam, compared with 100 percent in 2010, 100 percent in 2009,      arriving in the Seaway. Under these requirements, vessels must
99 percent in 2008, and 74 percent in 2007. Moreover, the report   conduct saltwater flushing of their tanks that contain residual
found that 7,203 ballast tanks during 396 vessel transits were     amounts of ballast water and/or sediment. Flushing must occur
assessed in 2011. Vessels that were unable to exchange their       in an area 200 nautical miles from any shore before entering
ballast water/residuals and that were required to retain them      waters of the Seaway.
onboard, received a verification boarding during their outbound
transit prior to exiting the Seaway. The effectiveness of the      SLSDC Continues to Support Binational “Green Marine”
Seaway’s ballast water inspection program has been publicly        and “Marine Delivers” Programs
credited as a key factor in preventing the discovery of
establishment of any new species in the Great Lakes since 2006     In FY 2012, the SLSDC continued to financially support and
– the longest such period of non-detection on record.              participate in the U.S.-Canadian “Green Marine” initiative, a
                                                                   marine industry partnership program aimed at demonstrating and
The report was prepared by the Great Lakes Seaway Ballast          communicating the maritime industry’s commitment to
Water Working Group (BWWG), which includes                         addressing a number of key environmental issues.
representatives of the SLSDC, Canadian SLSMC, the USCG’s
Ninth District, and Transport Canada. The group coordinates        The objective of the Green Marine program, which was
U.S. and Canadian enforcement and compliance efforts to            launched in October 2007, is to build and maintain strong
reduce the introduction of aquatic invasive species in the Great   relations with key stakeholders and develop a greater
Lakes via ships’ ballast water.                                    awareness of the maritime industry’s activities, benefits and
                                                                   challenges. To accomplish this, activities are directed towards
In addition to ballast tank exams for all oceangoing vessels       strengthening the industry’s environmental standards and

                                                                                                   Fiscal Year 2012 Annual Report   |    9
 ENVIRONMENTAL INITIATIVES
 SECTION

 performance through a process of continuous improvement,              A particular emphasis of the BWC has been to bring state
 helping the maritime industry to speak with one voice,                representatives together with marine industry representatives and
 strengthening industry involvement in regulatory processes,           respected scientists to find workable and effective solutions to
 and improving regulatory outcomes.                                    the aquatic invasive species challenge as they relate to the Great
                                                                       Lakes St. Lawrence Seaway System. The aim of the BWC is not
 In May 2009, the Green Marine CEO Governance Board                    to take away from any preexisting efforts in this regard, but
 mandated a small group of industry members to develop a               rather to complement those efforts.
 strong, proactive communications plan to better support the
 marine industry. This new initiative was launched in FY 2010          In September 2009, the BWC held its first meeting in Detroit,
 and is called “Marine Delivers”.                                      Mich., as an information-sharing forum on ballast water issues
                                                                       for the Great Lakes Seaway System. To date, the SLSDC has
 Marine Delivers is a binational industry collaboration created to     helped facilitate six BWC meetings at different locations
 demonstrate the positive economic and environmental benefits,         throughout the Great Lakes Seaway System. BWC meeting
 safety, energy efficiency, and sustainability of shipping on the      attendees include representatives from state and provincial
 Great Lakes Seaway System. The primary mission of the Marine          governments (Minnesota, Wisconsin, Illinois, Ohio, Michigan,
 Delivers communications program is to provide responsible,            New York, and Ontario); U.S. and Canadian regulatory
 timely, consistent and relevant information about the Great Lakes     agencies; senior executives from the U.S.-flag laker, Canadian-
 St. Lawrence Seaway System maritime industry.                         flag laker, and international fleets; and leading academic
                                                                       ballast water scientists and researchers from Canada and the
 Marine Delivers is jointly managed by the Canadian Chamber of         United States. In FY 2012, the SLSDC organized and
 Marine Commerce and the American Great Lakes Ports                    facilitated a BWC meeting in Duluth, Minn. (August 2-3) that
 Association. Program funding is secured from contributions from       was attended by more than 70 individuals.
 shipping companies, ports, the St. Lawrence Seaway entities, and
 other stakeholders with interests in the Great Lakes-Seaway           In FY 2012, the BWC played a key role in developing stronger
 region. The SLSDC serves as an “ex officio” member on the             connections among scientists, regulators, environmental non­
 Marine Delivers Executive Board and provides input into               governmental organizations (NGOs), and Seaway users. It has
 program activities.                                                   been instrumental in developing a more uniform regulatory
                                                                       approach for ballast water for the Great Lakes and for the
                                                                       entire country.
 SLSDC Plays Leadership Role on Great Lakes
 Ballast Water Collaborative
 In late FY 2009, the SLSDC facilitated the creation of the Great
 Lakes Ballast Water Collaborative (BWC), in conjunction with
 the International Joint Commission, to bring together industry
 and state and federal regulators on the issues of ballast water and
 invasive species in the region. One of the primary goals of the
 BWC is to share relevant, useful, and accurate information and
 foster better communication and collaboration among the key
 stakeholders engaged in the effort to reduce the risk of
 introduction and spread of aquatic nuisance species.




10   |   Saint Lawrence Seaway Development Corporation
                                                                                                 TRADE DEVELOPMENT INITIA
                                                                                                                      SECTION
                                                                                                                         TIVES




Trade Development Initiatives

                                                                                                 BELOW: The Saint Lawrence Seaway Development
                                                                                                 Corporation and The St. Lawrence Seaway
                                                                                                 Management Corporation lead a delegation of
                                                                                                 Great Lakes Seaway stakeholders on a trade
                                                                                                 mission to Antwerp and Ghent, Belgium.




T
        he SLSDC’s Office of Trade Development (OTD)
        develops and implements marketing activities to support
        increased trade on the Great Lakes St. Lawrence Seaway
System. The SLSDC’s Canadian counterpart, the St. Lawrence
Seaway Management Corporation (SLSMC), has a full-time
staff of five devoted to trade development. The two marketing
offices work in tandem on nearly all Seaway trade development
activities. The most notable binational marketing activity is the
Seaway Trade Mission program, which was launched in 1985.
Since then, the two Seaway agencies have led 33 trade missions
to 37 countries and 66 cities. The program’s goal is to educate
foreign business owners about important manufacturing and
agricultural markets in North America’s heartland and the use of
the St. Lawrence Seaway while also learning of new trading
opportunities in those countries.
By working collaboratively with the Canadian SLSMC and
stakeholders from around the system, the SLSDC has developed
and executed numerous promotional programs designed to              shipping agency Robert Reford, and carrier McKeil Marine.
educate international audiences about the many opportunities for
moving cargo to and from the heartland of North America.            The Breakbulk Europe conference provided Trade Mission
                                                                    participants with the opportunity to interact with over 4,000
SLSDC Co-Sponsors Binational Seaway                                 attendees and 200 exhibitors showcasing their respective
Trade Mission to Belgium                                            operations. Breakbulk Europe has become the largest gathering
                                                                    of breakbulk and project cargo logistics decision-makers on the
The SLSDC and SLSMC hosted the 33rd annual Seaway Trade             globe. Conference attendees had the opportunity to meet and
Mission to Antwerp and Ghent, Belgium, May 20-24, 2012. The         develop relationships with leading specialized carriers, freight
binational Trade Mission provided Great Lakes St. Lawrence          forwarders, ports, and terminals with the expertise and resources
Seaway System Stakeholders with the opportunity to participate      to handle oversized cargoes with unique handling requirements.
in the annual Breakbulk Europe conference, meet with the            The SLSDC and SLSMC staffed an information booth that
waterway’s largest client base in the breakbulk industry, educate   promoted the international waterway. Mission delegates were on
new contacts about the advantages the Seaway System provides        hand to answer questions, provide information, and highlight
for getting cargo into the heartland of North America, and learn    opportunities for those interested in shipping to/from the Seaway.
from industry experts about the European Union’s future plans
for bioenergy and coal. The delegation also met with long-time      The delegation met with key officials from the Ports of Antwerp
Seaway customers to further trade and marketing efforts between     and Ghent. Discussions focused on strategic development plans,
the Great Lakes Seaway System and eight German ports. The           commodities and tonnage, environmental initiatives, short sea
Seaway delegation consisted of 14 stakeholders representing the     shipping, long-term efforts to accommodate additional bulk
ports of Duluth (Minn.), Oswego (N.Y.), Milwaukee (Wis.),           cargoes, container traffic, and the handling of key Seaway
Burns Harbor (Ind.), Thunder Bay (Ont.), Oshawa (Ont.), the         commodities such as steel and grain.

                                                                                                    Fiscal Year 2012 Annual Report       |      11
 TRADE DEVELOPMENT INITIATIVES
 SECTION

 The 2012 Seaway Trade Mission provided a valuable                                    The SLSDC actively participates in the Great Lakes Wind
 opportunity for Great Lakes Seaway System stakeholders to                            Collaborative (GLWC), a multi-stakeholder group working to
 develop new business through personal contacts with numerous                         facilitate sustainable development of wind energy in the region.
 marine industry professionals. Meetings with diverse industry                        The SLSDC has worked with the GLWC for more than four
 representatives – energy, shipping, and trade – and active                           years primarily in the offshore working group and the economic
 participation in Breakbulk Europe offered delegates a chance to                      development group. The SLSDC participated in GLWC wind
 broaden their knowledge, hone marketing skills, and strengthen                       and waterfront webinars and the 5th Annual GLWC meeting in
 existing business relationships.                                                     Erie, Pa. The St. Lawrence Seaway is the marine gateway for
                                                                                      wind components moving into and out of states and provinces,
 SLSDC Participates at Annual Seatrade                                                and is expected to play a significant role in the ultimate
 Cruise Convention in Miami                                                           establishment of an offshore wind industry.

 In coordination with the Great Lakes Cruising Coalition, the                         During FY 2012, the SLSDC participated in two wind industry
 SLSDC participated in the annual Seatrade Cruise Convention,                         related workshops: The Wind Turbine Blade Workshop in
 March 12-15, 2012 in Miami, Fla. For more than 25 years, the                         Albuquerque, N.M., and Navigant Workshop in Chicago, Ill.
 cruise ship industry has gathered in Miami to promote every                          Meetings were also held with representatives from the West
 aspect of the marine passenger travel industry. This year’s event                    Michigan Port Operators and the Michigan Alternative and
 attracted more than 11,000 visitors and 1,000 exhibitors. The                        Renewable Energies Center to discuss port operations and
 Seaway delegation introduced cruising on the Great Lakes to                          growing regional onshore wind industry for the Port of
 new customers and reaffirmed current and past customers that                         Muskegon (Mich.).
 the Great Lakes remains one of the safest destinations for cruise
 ships and a comfortable environment for travelers seeking                            SLSDC and SLSMC Host Domestic Trade Mission
 vacation options closer to home. The delegation also staffed an                      to Houston and New Orleans
 information booth that highlighted the Great Lakes Seaway
 System and the many destination ports for cruise ship passengers                     The SLSDC and SLSMC hosted a binational Domestic Trade
 to explore. The SLSDC’s Marine Specialist worked directly with                       Mission to Houston, Tex., and New Orleans, La., October 24-28,
 cruise ship owners and operators and discussed requirements and                      2011. The mission was developed based on input from Great
 provided technical information for cruise ships entering the                         Lakes Seaway System stakeholders who wanted to gain insight
 Seaway System.                                                                       on how the waterway’s competition operates on a daily basis.
                                                                                      Meetings and port and terminal tours took place at the Port of
                                                                                      Houston, Texas Terminals, and Port of New Orleans. Following
 SLSDC Participates in Wind Industry Forums
                                                                                      scheduled events in both Gulf Coast cities, the delegation
 In FY 2012, the SLSDC’s Office of Trade Development                                  participated in the annual Breakbulk Exhibition in New Orleans.
 continued to dedicate resources to the development of renewable                      The three-day event is one of the largest and most important
 energy trade on the Great Lakes Seaway System, especially the                        gatherings in North America for companies involved in the
 wind sector. The first shipments of wind cargoes into U.S. and                       shipping of heavy-lift cargo and traditional breakbulk cargoes.
 Canadian Great Lakes ports occurred less than a decade ago and                       Shippers had the opportunity to meet and develop relationships
 movements have increased steadily each year.                                         with the leading specialized carriers, freight forwarders, ports,
                                                                                      and terminals that have the expertise and resources to handle
                                                                                      oversized cargoes with unique handling requirements.




 ABOVE: The Saint Lawrence Seaway Development Corporation and The St. Lawrence
 Seaway Management Corporation host a binational domestic trade mission to Houston,
 Texas and New Orleans, Louisiana.




12   |   Saint Lawrence Seaway Development Corporation
                                                                                                            TRADE DEVELOPMENT INITIATIVES
                                                                                                                                 SECTION




Four U.S. Ports Earn SLSDC’s Robert J. Lewis                      ABOVE LEFT: SLSDC Administrator Collister Johnson, Jr. (right), presents the Robert J. Lewis
                                                                  Pacesetter Award to Will Friedman, President and CEO, Cleveland-Cuyahoga County Port
Pacesetter Award                                                  Authority. During the 2011 navigation season, the port shipped 302,047 metric tons of
                                                                  cargo through the Seaway, a 10 percent increase over the previous season.
In March 2012, the SLSDC announced four winners of its
Robert J. Lewis Pacesetter Award for the 2011 navigation          ABOVE RIGHT: During the 2011 navigation season, the Brown County Port and Solid Waste
season. This annual award is presented to U.S. Great Lakes        Department moved 60,888 metric tons of cargo through the Seaway, a huge increase of
Seaway System ports that register an increase in international    139 percent over the 2010 season. Pictured left to right – Neil McKloskey, Harbor
cargo tonnage shipped through the Seaway over the previous        Commissioner; Troy Streckenbach, Brown County Executive; Dean Haen, Interim
                                                                  Director, Brown County Port and Solid Waste Department; and Collister Johnson, Jr.,
navigation season.                                                SLSDC Administrator.
The four ports that earned the 2011 Pacesetter award were:
Cleveland-Cuyahoga County Port Authority; Port of Green
Bay; Port of Indiana-Burns Harbor; and Port of Chicago.
Compared to the 2010 navigation season, in 2011 the Port of
Green Bay realized a tonnage increase of 139 percent, the
Port of Chicago reported a 21 percent increase, the Port of
Cleveland saw a 10 percent increase, and the Port of Indiana-
Burns Harbor posted an increase of 5 percent.

SLSDC and SLSMC Host Annual Stakeholder
Appreciation Reception
In conjunction with the annual events surrounding Montreal
Marine Club, the SLSDC and SLSMC sponsored their annual
trade promotion and stakeholders appreciation reception in
Montreal, Quebec, December 1, 2011. This event allows the
Seaway Corporations to promote the ongoing and future
marketing efforts that are designed to raise the profile of the
System, and increase tonnage and vessel activity. This event
is also an opportunity to thank stakeholders for their
continued support of the Great Lakes Seaway System. This
year’s reception was attended by more than 150 stakeholders
as well as current and potential customers from several
European countries.

                                                                  ABOVE: Terence Bowles (left), President and CEO, The St. Lawrence Seaway Management
                                                                  Corporation, and Craig Middlebrook (right), Acting Administrator, SLSDC, welcome the
                                                                  stakeholders to the annual Stakeholder Appreciation Reception held in Montreal, Canada.




                                                                                                                Fiscal Year 2012 Annual Report             |     13
 MANAGEMENT INITIATIVES




 Management Initiatives
 
 





 SLSDC, Maritime Industry Release Results of 
                         rehabilitate the U.S. Seaway’s navigation infrastructure, the
 U.S.-Canadian Great Lakes Seaway System 
                             Seaway International Bridge, and Corporation facilities in
 Maritime Commerce Economic Impact Study 
                             Massena, N.Y.

 On October 18, 2011, the findings of a new U.S.-Canadian Great        In FY 2012, the SLSDC obligated $15.8 million on 32 ARP
 Lakes St. Lawrence Seaway System economic impact study were           projects. Major ARP activities obligated in FY 2012 included
 released, the study documented that maritime navigation on the        Snell Lock ice flushing system installation ($11.5 million), buoy
 binational waterway system supports more than 227,000 jobs and        barge improvements ($2.2 million), culvert valve machinery
 generates tens of billions of dollars in income and revenues          hydraulic upgrades ($540,000), and facility upgrades to meet
 annually in both the U.S. and Canada. The comprehensive study,        HSPD-12 requirements ($352,000). There were several small
 “The Economic Impacts of the Great Lakes St. Lawrence Seaway          obligations associated with out-year ARP projects in preparation
 System 2010” was commissioned by the marine shipping industry,        for future work, which greatly increased the number of projects
 in partnership with government agencies including the SLSDC,          funded during the fiscal year. Through the first four years of ARP
 and peer reviewed by U.S. and Canadian economists.                    funding (FYs 2009-2012), the SLSDC has obligated $65 million
                                                                       on more than 40 separate projects.
 The study measured the effects of 2010 cargo movements at U.S.
 and Canadian Great Lakes St. Lawrence Seaway ports, including         The SLSDC’s ARP is resulting in not only modernized
 employment, personal income, business revenues, local                 infrastructure and new equipment to ensure the long-term
 purchases, and federal, state, provincial, and local taxes. The       reliability of the St. Lawrence Seaway, but it is also having a
 study was performed by Martin Associates of Lancaster, Pa.            positive and significant impact on the Upstate New York
                                                                       economy. Approximately 70 percent of the ARP funds obligated
 The analysis found that maritime commerce on the Great Lakes          during the program’s first four years, totaling more than $40
 Seaway System helped support 227,000 U.S. and Canadian jobs,          million, were awarded within the region. In addition to these
 including 93,000 direct jobs. In addition, maritime activity on the   contracts, the ARP is producing approximately $2.5 million in
 binational waterway supported $35 billion in business revenue,
                                                                       additional economic benefits to the region (local permanent and
 $14 billion in personal income, and $5 billion in federal, state,
                                                                       temporary hires, local spending on supplies and equipment,
 provincial, and local tax revenue.
                                                                       lodging, meals, etc.) each year.
 In 2010, U.S. and Canadian ports and marine terminals on the
                                                                       In FY 2012, the SLSDC completed its first year of large-scale
 Great Lakes Seaway System handled 322.1 million metric tons
                                                                       ARP winter work projects. SLSDC employees, as well as eight
 of cargo (moved approximately 164 million metric tons),
                                                                       contractor firms, seven of which were from Upstate New York,
 including grain, iron ore, coal, manufactured iron and steel
                                                                       completed six ARP projects at the two U.S. locks. The number of
 products, stone, and specialty cargoes such as wind energy
                                                                       workers represented the largest number to work on the Seaway
 components. A link to the full study can be found at
                                                                       locks since their construction in the 1950s. Major ARP projects
 www.greatlakes-seaway.com or www.marinedelivers.com.
                                                                       completed included the upstream Snell Lock miter gate
                                                                       rehabilitation, the vertical lift gate improvements at the
 SLSDC Completes Fourth Year of Asset Renewal Program
                                                                       Eisenhower Lock, and the upstream culvert valve machinery
 During FY 2012, the SLSDC continued its work in the area of           hydraulic upgrades at both locks. All of the projects, as well as
 U.S. Seaway infrastructure renewal as part of its multi-year Asset    numerous other winter preventative maintenance projects, were
 Renewal Program (ARP). The ARP was started in FY 2009 to              completed on time. The total number of work man-hours lost due

14   |   Saint Lawrence Seaway Development Corporation
                                                                                                                                                    MANAGEMENT INITIATIVES


LEFT: Saint Lawrence Seaway Development Corporation employees were honored by U.S. Department of Transportation Secretary and Saint Lawrence Seaway Development Corporation, Acting
Administrator Craig Middlebrook at an award ceremony held in Washington, D.C. (left to right), Craig Middlebrook, Acting Administrator; Karl Livingston, Chief and Electrician Maintenance
Division; Anita Blackman, Chief of Staff; Nancy Alcalde, Director of Congressional and Public Relations; Fred Carter, President of AFGE Local 1968; and Dave Sanford, Civil Engineer.


to safety-related incidents represented only one-quarter of                                      Awards and Recognition Working Group, a cross-modal team
1 percent (0.272%) for work spanning three months and                                            comprised of representatives from each of the Department’s
comprising over 50,000 documented work man-hours.                                                Operating Administrations. The group was tasked to review
                                                                                                 DOT’s awards and recognition programs, make
The SLSDC’s ARP represents the first comprehensive effort                                        recommendations to ensure policy consistency and fairness
since 1959 to reinvest in and modernize the U.S. Seaway                                          throughout the Department, and standardize the allocation of
infrastructure. Without such significant reinvestment in these                                   awards. In addition, Adam Schlicht, who serves as the SLSDC’s
perpetual transportation assets, it would become increasingly                                    Emergency Coordinator, was recognized for his contribution to
difficult to maintain the future availability and reliability of the                             the Department’s Emergency Response Team involved in
Seaway (currently at greater than 99 percent). An economic                                       earthquake and hurricane incidents in 2011.
analysis concluded that the economic impact of a shutdown of
either of the two U.S. locks would result in a loss to those
                                                                                                 SLSDC Maintains ISO 9001:2008 Status
dependent on this mode of transportation of $1.3-$2.3 million
per day, depending on the length of the delay.                                                   On July 19-20, 2012, the SLSDC successfully completed a two-
                                                                                                 day surveillance audit of its International Standards Organization
The completion of ARP projects will extend the life of the U.S.
                                                                                                 (ISO) 9001:2008 certified quality management system. The
Seaway infrastructure and reduce the risk of system delays to
                                                                                                 audit, conducted by Lloyd’s Register of Quality Assurance,
commercial navigation caused by lock equipment malfunction.
                                                                                                 found that the SLSDC’s Quality Management System continues
In addition, several ARP projects will involve the
                                                                                                 to be effectively implemented and ably demonstrated.
implementation of new and improved technologies for the
operation of the Seaway infrastructure, which will result in                                     Areas for improvement were identified related to the manage­
minimized maintenance needs.                                                                     ment of computerized maintenance system records, as well as
                                                                                                 compliance with procedures for conducting internal audits.
The ARP supports the engineering considerations highlighted in
                                                                                                 Additionally, activities regarding the scheduling and planning
the Great Lakes St. Lawrence Seaway Study (published in
                                                                                                 for the certification renewal in FY 2013 were addressed.
November 2007) and follows the asset renewal activities
currently underway on the Canadian Seaway locks. Beginning                                       In 1998, the SLSDC began the process of certifying its
with the passage of the Canada Marine Act in 1998, the                                           operational business practices through the internationally
Canadian government started addressing the asset renewal needs                                   recognized ISO standards. The ISO recognition is only conferred
of its 13 Seaway locks, including the eight Welland Canal locks                                  on those service firms and organizations that meet the highest
that are over 75 years old.                                                                      quality customer service and management standards set by the
                                                                                                 Geneva, Switzerland-based ISO. The SLSDC’s certification is
SLSDC Employees Receive DOT Award                                                                internationally recognized and complements the agency’s
                                                                                                 marketing and trade development efforts overseas. Customer
On November 3, 2011, SLSDC employees from Massena, N.Y.
                                                                                                 feedback is taken seriously and improvements are made as a
and Washington, D.C. were honored by U.S. Transportation
                                                                                                 result. Maintaining the ISO certification has kept agency officials
Secretary Ray LaHood and SLSDC Deputy Administrator Craig
                                                                                                 focused on finding better ways of operating the waterway, and
Middlebrook at the 44th Annual DOT Awards Ceremony held in
                                                                                                 recognizing how agency initiatives and decisions affect its
Washington. The Secretary recognized high performance
                                                                                                 customers, both internally and externally. Other benefits of the
employees and teams working together to meet the Department’s
                                                                                                 SLSDC’s ISO certification include improved communications
strategic goals and accomplish its mission.
                                                                                                 within the organization, redefined business processes that are
SLSDC Engineering, Maintenance, and Procurement staff from                                       clearly understood by employees, and integrated performance
Massena were presented a Team Award for the implementation                                       measurements and objectives with the agency’s mission.
of four major capital projects to improve the U.S. lock
infrastructure, the first significant improvements since the                                     Transportation Secretary LaHood Appoints SLSDC Deputy
Seaway was constructed in the 1950s. Representing the SLSDC                                      Administrator Middlebrook as Acting Administrator
team at the ceremony were Karl Livingston, Chief, Maintenance
Division; Dave Sanford, Civil Engineer; Fred Carter, Electrician                                 In May 2012, U.S. Secretary of Transportation Ray LaHood
and President of the SLSDC’s AFGE Local 1968; and Patricia                                       appointed SLSDC Deputy Administrator Craig H. Middlebrook
White, Chief of Procurement and Supply.                                                          to serve as the agency’s Acting Administrator following the
                                                                                                 departure of Administrator Collister Johnson, Jr. Mr.
Three employees in the SLSDC’s Washington office were also                                       Middlebrook previously served as the SLSDC Acting
recipients of a Team Award. Anita K. Blackman, Chief of Staff;                                   Administrator in 2006.
Nancy Alcalde, Director of Congressional and Public Relations;
and Adam Schlicht, Management Analyst, served on the DOT

                                                                                                                                             Fiscal Year 2012 Annual Report            |     15
 MANAGEMENT INITIATIVES

 SLSDC Serves on GLMRI Advisory Board
 During FY 2012, the SLSDC continued to serve as a member of
 the Advisory Board of the Great Lakes Maritime Research
 Institute (GLMRI), which was established in 2004 as a consortium
 between the University of Wisconsin-Superior and the University
 of Minnesota-Duluth and includes affiliate universities around the
 Great Lakes region. Its mission is to develop and improve
 economically and environmentally sustainable maritime
 commerce on the Great Lakes through applied research. Other
 GLMRI board members include: the U.S. Maritime
 Administration; the U.S. Coast Guard; the U.S. Army Corps of
 Engineers; the Great Lakes Commission; the Lake Carriers’
 Association; the American Great Lakes Ports Association; and the
 Society of Naval Architects and Marine Engineers.
                                                                                       U.S. Deputy Secretary of Transportation John Porcari travels to Massena, N.Y., to tour the
                                                                                       SLSDC’s operational facilities, meet with the workforce, and present a Special Act Award
 DOT Deputy Secretary Visits SLSDC’s                                                   to the Marine Division. (Mr. Porcari is fourth from the left.)
 Massena, N.Y. Operations
 On August 9-10, 2012, U.S. Deputy Secretary of Transportation                         goals of improving customer service and reducing costs. SLSDC
 John Porcari traveled to Massena, N.Y. to tour the SLSDC’s                            and SLSMC officials met in St. Lambert, Quebec, on December
 operational facilities. Deputy Secretary Porcari held an all-hands                    5-6, 2011, and in Massena, N.Y., on June 27-28, 2012.
 meeting with staff, toured the administration and maintenance
 facilities buildings, rode on the SLSDC tug Robinson Bay, met                         At each set of meetings, SLSDC and SLSMC senior managers
 with Seaway International Bridge officials, visited the SLSDC’s                       delivered presentations in the areas of stakeholder engagement,
 Vessel Traffic Control Center, and toured the lock infrastructure                     business growth, and operational initiatives. Group discussions
 and the Eisenhower Lock Visitors’ Center. He completed the visit                      focused on coordination between the two agencies for continued
 by meeting with senior officials from the Canadian SLSMC.                             service improvement, including follow-up on a number of
                                                                                       priorities established at earlier joint sessions. Other topics at the
 SLSDC and SLSMC Continue Joint Strategic and                                          meetings included: an update on ballast water regulations and
                                                                                       recent actions taken by Great Lakes states; the Draft Information
 Business Development Initiatives
                                                                                       System (DIS) and other technological advancements; impact of
 During FY 2012, the SLSDC and SLSMC continued work on                                 relevant legislative proposals in both the U.S. and Canadian
 their joint strategic and business development initiatives to ensure                  governments; and a recap of marketing activities, the 2012
 that the two Seaway governing entities work toward the common                         Seaway Trade Mission, and opportunities for tonnage growth.


 U.S. Secretary of Transportation Ray LaHood presents David McMillan, SLSDC Advisory   U.S. Secretary of Transportation Ray LaHood swears in Wenona Singel to the SLSDC
 Board member with his official presidential certificate.                              Advisory Board.




16   |   Saint Lawrence Seaway Development Corporation
                                                                                                                                              MANAGEMENT INITIATIVES

SLSDC Welcomes Two New Advisory Board Members
On June 12, 2012, U.S. Secretary of Transportation Ray LaHood
swore in two new SLSDC Advisory Board members – Wenona T.
Singel and David J. McMillan. The SLSDC’s Advisory Board is
statutorily mandated to review the general policies of the SLSDC
and advise the SLSDC Administrator with respect to these
policies. Members of the five-person Board are appointed by the
President with the advice and consent of the U.S. Senate and not
more than three members can belong to the same political party.
The SLSDC Advisory Board meets at least once every 90 days.
Ms. Singel of East Lansing, Mich., is the Assistant Professor of
Law and Associate Director of the Indigenous Law and Policy
Center at the Michigan State University College of Law. Mr.
McMillan of Duluth, Minn., is Senior Vice President of                                       High school juniors of the Massena Tech Prep Program visited Lock Operations as part of
Marketing, Regulatory and Public Affairs and Executive Vice                                  their Corporate Tours.
President of Minnesota Power, ALLETE, Inc.
Ms. Singel and Mr. McMillan join Mr. Charles E. “Trip” Dorkey,                               SLSDC Promotes Local Education and
III of New York City and partner in the law firm of McKenna,                                 Mentoring Programs
Aldridge & Long, LLP, on the SLSDC’s Advisory Board.
                                                                                             The SLSDC continued its Adopt-A-School program with the
                                                                                             Jefferson Elementary School in Massena, N.Y., and its partnering
SLSDC Launches Facebook Page
                                                                                             efforts with the Tech Prep/School-to-Work Initiative with
In June 2012, the SLSDC launched a Facebook page                                             Massena Central High School and St. Lawrence University, to
(www.facebook.com/usdotslsdc) to help promote the agency and                                 prepare high school juniors and seniors for post school
the Great Lakes St. Lawrence Seaway System. The SLSDC is                                     employment. The SLSDC served as one of the corporate partners
utilizing Facebook to share important information, offer Seaway-                             for the Tech Prep case studies. The students were asked to create
related content, interact with Seaway stakeholders, and                                      an interactive display for the SLSDC’s Dwight D. Eisenhower
incorporate many of the other unique features available across                               Visitors’ Center that would be low cost and education based. In
social media. While the binational Seaway website                                            addition, fifth graders from Jefferson Elementary School in
(www.greatlakes-seaway.com) remains the definitive source for                                Massena, N.Y., participated in the Seaway’s National
all U.S. and Canadian-related Seaway information, the SLSDC’s                                Transportation Week Poster Contest in June 2012. The SLSDC
Facebook page will also be used as a central location for                                    selected the contest winners, Jonathan Russell and Keely
Seaway-related content.                                                                      Thompson-Cook, and presented them with U.S. Savings Bonds.


The theme of the 2012 National Transportation Week Poster Contest was “St. Lawrence Seaway Helps the Nation Move,” and pictured are the two winners. Left photo is Jonathan Russell
with his teacher Ms. Coffin and the right photo is Keely Thompson-Cook with her teacher Mr. Graham.




                                                                                                                                       Fiscal Year 2012 Annual Report            |     17
 PERFORMANCE MEASURES AND RESULTS




 SLSDC FY 2012 Performance 

 Measures and Results



                                                                                                BELOW: The Corporation’s Administration Building
                                                                                                in Massena, N.Y., built in April 1958.




 Safety
 Enhanced Seaway Inspections – “Inspect 100 percent of
 ocean vessels during their first Seaway inbound transit at
 Montreal, Quebec, outside of U.S. waters, each navigation
 season.” The goal was achieved during the 2011 season,
 with 231 vessel inspections conducted by SLSDC personnel.
 As of September 30, 2012, 176 vessel inspections had been
 completed.

 Reliability
 System Availability – “Ensure the reliability and availability of
 the U.S. portion of the Seaway, including the U.S. locks and
 related navigational facilities, during each navigation season.”
 The goal each year is 99 percent availability. The goal was
                                                                     Management Accountability
 achieved during the 2011 season with an availability rate of
 99.5 percent. System availability during the 2012 navigation        Administrative Expenses – “Reduce the administrative
 season, through September 30, was 99.6 percent. Final FY            overhead expense ratio of total operating expenses, excluding
 2012 system availability was 99.7 percent.                          ARP projects, depreciation, and imputed expenses, to 25
                                                                     percent or lower.” The administrative expense ratio goal was
 Lock Equipment Maintenance – “Minimize vessel delays due
                                                                     met in FY 2012 at 22 percent.
 to lock equipment failure or malfunction.” The goal each year
 is zero hours of delay. In 2011, the goal was not met when the      Financial Reserve Balance – “Maintain/increase the financial
 SLSDC recorded 2 hours, 29 minutes of lock-related delays.          reserve account to ensure contingency funding for catastrophic
 Through September 30, 2012, lock-related delays totaled 6           emergencies and funding for critical capital and extraordinary
 hours, 6 minutes, which also ended up as the final FY 2012          maintenance projects.” The goal each year is to maintain a
 lock-related delay total.                                           minimum year-end balance of $10 million. The financial
                                                                     reserve goal was met in FY 2012 with a year-end balance of
                                                                     $12.8 million.
                                                                     Financial Audit Opinion – “Achieve an unqualified opinion
                                                                     (clean audit) in the independent examination of financial
                                                                     statements as well as no instances of non-compliance with
                                                                     laws and regulations or material weaknesses in internal control
                                                                     as they relate to financial reporting.” The goal was achieved in
                                                                     FY 2012 as the Corporation received its 48th consecutive
                                                                     unqualified opinion of its financial statements for FY 2011
                                                                     with no material weaknesses or reportable conditions in
                                                                     October 2011.


18   |   Saint Lawrence Seaway Development Corporation
                                CORPORATION’S STATEMENT ON INTERNAL ACCOUNTING AND ADMINISTRATIVE CONTROL SYSTEM




Corporation’s Statement on Internal Accounting
and Administrative Control System




P
       ursuant to Section 306 of the Chief Financial Officers Act      administrative control, including those limitations resulting from
       of 1990, the Corporation is required to provide a statement     resource constraints, Congressional restrictions, and other
       on internal accounting and administrative control systems       factors. Finally, projection of any evaluation of the system to
consistent with the requirements of the Federal Managers’              future periods is subject to the risk that procedures may be
Financial Integrity Act (FMFIA) of 1982. An evaluation of the          inadequate because of changes in conditions or that the degree of
system of internal accounting and administrative control of the        compliance with the procedures may deteriorate.
Corporation in effect during the year ended September 30, 2012
was performed in accordance with “Guidelines for Evaluation            A material weakness or non-conformance is a specific instance
                                                                       of non-compliance with the Integrity Act. Such weakness would
and Improvement of and Reporting on Internal Control Systems
                                                                       significantly impair the fulfillment of an agency component’s
in the Federal Government”, issued by the Director of the Office
                                                                       mission; deprive the public of needed services; violate statutory
of Management and Budget, in consultation with the
                                                                       or regulatory requirements; significantly weaken safeguards
Comptroller General, as required by the FMFIA, and
                                                                       against waste, loss, unauthorized use or misappropriation of
accordingly included an evaluation of whether the system of
                                                                       funds, property, or other assets; or result in a conflict of interest.
internal accounting and administrative control of the Corporation
                                                                       Each material non-conformance in a financial system merits the
was in compliance with the standards prescribed by the
                                                                       attention of the agency head/senior management, the Executive
Comptroller General.
                                                                       Office of the President, or the relevant Congressional oversight
The objectives of the system of internal accounting and                committee; prevents the primary agency’s financial system from
administrative control of the Corporation are to provide               achieving central control over agency financial transactions and
reasonable assurance that:                                             resource balances; and/or prevents conformance of financial
                                                                       systems with financial information standards and/or financial
  • Obligations and costs are in compliance with applicable            system functional standards.
    law;
                                                                       The results of the evaluations described in the second paragraph,
  • Funds, property, and other assets are safeguarded against          assurances given by appropriate Corporation officials, and other
    waste, loss, unauthorized use, or misappropriation; and            information provided indicate that the system of internal
  • Revenues and expenditures applicable to agency operations          accounting and administrative control of the Corporation in
    are properly recorded and accounted for to permit the              effect during the year ended September 30, 2012, taken as a
    preparation of accounts and reliable financial and statistical     whole, complies with the requirement to provide reasonable
    reports and to maintain accountability over the assets.            assurance that the above-mentioned objectives were achieved
                                                                       within the limits described in the preceding paragraph. The
The concept of reasonable assurance recognizes that the cost of        evaluation did not disclose any material weaknesses or non-
internal control should not exceed the benefits expected to be         conformances in the internal accounting and administrative
derived therefrom, and that the benefits consist of reductions in      control system in FY 2012 and prior years.
the risks of failing to achieve the stated objectives. Estimates and
judgments are required to assess the expected benefits and
related costs of control procedures. Furthermore, errors or
irregularities may occur and not be detected because of inherent
limitations in any system of internal accounting and


                                                                                                         Fiscal Year 2012 Annual Report   |     19
        (pages 20-21 intentionally left blank,
see document page 3 for independent auditor’s report)
 STATEMENTS OF FINANCIAL POSITION




             See Notes to Financial Statements           (Continued)




22   |   Saint Lawrence Seaway Development Corporation
                                    STATEMENTS OF FINANCIAL POSITION




See Notes to Financial Statements                      (Concluded)




                                         Fiscal Year 2012 Annual Report   |   23

 STATEMENTS OF OPERATIONS AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS




           See Notes to Financial Statements




24   |   Saint Lawrence Seaway Development Corporation
                                     STATEMENTS OF CASH FLOWS




See Notes to Financial Statements




                                    Fiscal Year 2012 Annual Report   |   25

 STATEMENT OF BUDGETARY RESOURCES AND ACTUAL EXPENSES




         See Notes to Financial Statements




26   |   Saint Lawrence Seaway Development Corporation
                                    STATEMENTS OF CHANGES IN EQUITY OF THE U.S. GOVERNMENT




See Notes to Financial Statements




                                                               Fiscal Year 2012 Annual Report   |   27

 NOTES TO FINANCIAL STATEMENTS




 SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION

 Notes to Financial Statements
 As of and for the years ended September 30, 2012 and 2011




 Note 1. The Corporation
 The Saint Lawrence Seaway Development Corporation (the "Corporation"), a wholly-owned government corporation
 within the Department of Transportation, was created by the Wiley Dondero Act of May 13, 1954 (68 Stat. 92, 33
 U.S.C. 981), as amended. The Corporation is responsible for the development, seasonal operation and maintenance of
 the portion of the St. Lawrence Seaway (the "Seaway") between Montreal and Lake Erie, and within the territorial
 limits of the United States.



 Note 2. Summary of Significant Accounting Policies
 These financial statements have been prepared to report the financial position, results of operations, and cash flows of
 the Corporation as required by the Chief Financial Officers Act of 1990. They have been prepared from the books and
 records of the Corporation in accordance with generally accepted accounting principles as set forth for Federal
 Government Corporations, and the Corporation's accounting policies and procedures, which are summarized below.
 The accounting policies and procedures are consistent with Title 2 of the U.S. General Accounting Office's Policy and
 Guidance of Federal Agencies.
 Inventories consist primarily of supplies which are consumed in operations and are valued at the lower of cost or 
 

 market with cost being determined using the weighted average method. 
 

 Plant, property and equipment are stated at cost of acquisition or construction. Indirect costs incurred prior to the
 opening of the Seaway on April 25, 1959, have been allocated to the permanent features of the Seaway. Assets,
 improvements and betterments costing $5,000 or more are capitalized when they have an expected useful life of two
 years or more. Repairs and maintenance costs are expensed. The straight line method of depreciation is used and is
 computed on balances in plant in service. The cost of plant retired and the accumulated depreciation are removed from
 the accounts on disposal. Gains or losses on disposals are credited or charged to operations.
 Lock spare parts consists of inventory items valued at the lower of cost or market with cost being determined using the
 weighted average method.
 Accrued annual leave represents the value of the unused annual leave accrued to employees of the Corporation. The
 leave is funded and reported as an obligation.
 The Corporation funds a program administered by the U.S. Department of Labor to compensate certain employees for
 death and disability resulting from performance of duty injuries or illnesses as set forth in the Federal Employees
 Compensation Act (FECA). As provided by FECA, employees and certain dependents are beneficiaries for various
 periods that can extend to life. The Corporation recognizes current costs of the program on an accrual basis and

28   |   Saint Lawrence Seaway Development Corporation
                                                                                      NOTES TO FINANCIAL STATEMENTS




expenses those costs in the year the benefits are due. Effective with fiscal year (FY) 1994, the actuarial liability of
these benefits are recognized and recorded in these financial statements. The liability and deferred charge recorded of
$4,587,923 and $4,242,279 at September 30, 2012 and 2011, respectively, reflects the actuarial liability as determined
by the Department of Labor.
Seaway Tolls

The Water Resource Development Act of 1986 (Public Law 99-662) required the Corporation to turn over U.S.
Seaway tolls charged on commercial vessels to the Harbor Maintenance Trust Fund (the "Fund"). Annual
appropriations from the Fund are used to meet operation and maintenance expenses. The Act further required the U.S.
Treasury to rebate the tolls to the shippers from the Fund. Public Law 103 331, dated September 30, 1994, eliminated
the requirement to collect and rebate these tolls effective October 1, 1994.
Invested Capital

The Corporation was initially funded by revenue bonds issued by the U.S. Treasury. On December 18, 1982, Congress
cancelled the outstanding revenue bonds of $109,976,000 (P.L. 97-369, 96 Stat. 1782). With cancellation of the debt,
the amount was converted to invested capital. Since FY 1987, when the Corporation began receiving annual
appropriations from the Harbor Maintenance Trust Fund, capital expenditures and annual depreciation have been
recognized in invested capital.
Budget Authority

The Corporation was apportioned authority by the Office of Management and Budget (OMB) to obligate a maximum
amount of $33,159,000 for FY 2012, $32,259,000 from the Fund (Public Law 112-55) and $900,000 from non-federal
revenues. FY 2012 funding includes year four of a 10-year Asset Renewal Plan. Actual obligations, in contrast to the
accrued costs stated in the Statement of Operations, totaled $32,833,559 for FY 2012. The Corporation's unobligated
balance at September 30, 2012 totaled $16.0 million including $3.2 million unused borrowing authority. For FY 2013,
the Corporation is currently funded by a Continuing Resolution based on the FY 2012 level increased by .612 percent
for a current rate of $32,456,425. However, automatic apportionment as provided by the Continuing Resolution is
limited to the FY 2012 level of $32,259,000. In addition, authority to obligate $900,000 of non-federal revenues has
been apportioned by OMB for FY 2013.
Statements of Cash Flows

For purposes of financial reporting, the Corporation considers cash to be cash held in the U.S. Treasury, cash in banks
and cash on hand.
Use of Estimates

The preparation of financial statements in conformity with accounting principles generally accepted in the United
States of America requires management to make estimates and assumptions that affect certain amounts reported in the
financial statements and accompanying notes. Actual results could differ from those estimates.



Note 3. Time Deposits in Minority Banks
The Corporation maintains insured deposits in a number of minority banks throughout the United States to help
expand opportunities for minority business enterprises. These deposits consist mainly of the Corporation's unobligated
balance, which is retained for emergency situations.




                                                                                          Fiscal Year 2012 Annual Report   |   29
 NOTES TO FINANCIAL STATEMENTS




 Note 4. Accounts Receivable and Other Current Assets
 The Corporation has not provided for an allowance on uncollectible receivables because prior losses have been
 insignificant. Receivables and other current assets as of September 30, 2012 and 2011 are as follows:


                                                                                                       2012                        2011
                                          Due from concession contracts                          $         132,728         $        111,584
                                          Other                                                             44,778                    56,904
                                          Interest on deposits in minority banks                             5,455                     6,688
                                          Federal Railroad Administration                                        -                  310,301
                                              Total                                              $         182,961         $        485,477




 Note 5. Plant in Service
 Plant in service as of September 30, 2012 and 2011 is as follows:


                                                                                2012                                     2011
                                                   Estimated
         Plant in                                      Life                             Accumulated                             Accumulated
         Service                                    (Years)              Cost           Depreciation           Cost             Depreciation
         Locks and guidewalls                         40 - 100     $   92,863,181   $   46,825,319     $    82,177,158     $      45,650,784
         Channels and canals                                 95        36,870,221       18,714,584          36,870,221            18,327,447
         Buildings, grounds and
              utilities                                      50        17,532,584         7,836,960         16,771,752             7,497,119
         Permanent operating
              equipment                                   5 - 40       15,950,265       10,357,501          15,950,909             9,878,326
         Roads and bridges                                   50        12,564,980         9,539,853         12,564,980             9,288,554
         Land rights & relocations                           95         5,639,064         2,886,379          5,639,064             2,827,168
         Navigation aids                                 10 - 40        3,154,779         2,682,821          3,145,171             2,648,203
         Public use facilities                               50          930,374           756,585             930,374               737,978
         Lands in fee                                       N/A          867,326                  -            867,326                         ­
              Total plant in service                               $ 186,372,774    $    99,600,002    $ 174,916,955       $      96,855,579




30   |   Saint Lawrence Seaway Development Corporation
                                                                                      NOTES TO FINANCIAL STATEMENTS




The U.S. portion of the St. Lawrence Seaway was built in the late 1950s. The Corporation developed, as part of its FY
2009 budget request to Congress, a ten-year Asset Renewal Program (ARP) estimated at $186 million to address the
long-term asset renewal needs of the aging U.S. Seaway Infrastructure. The ARP includes various needs for the two
U.S. Seaway Locks, the Seaway International Bridge, maintenance dredging, operational systems, and Corporation
facilities and equipment. The total amount that has been expended and / or committed (including undelivered orders)
in the program through September 30, 2012, excluding personnel compensation, amounted to $65,548,709.
Plant in service includes costs of certain features of the Seaway International Bridge Corporation, Ltd. (SIBC), which
is discussed in Note 6. These features include land rights and relocation costs incurred in removing the old bridges,
which were a hindrance to navigation, and in building the superstructure of the South Channel Bridge. The gross
amounts of $3,897,379 in land rights and relocations, and $4,853,320 in roads and bridges have been depreciated
accordingly.


Note 6. Investment in the Seaway International Bridge Corporation, Ltd. (SIBC)
The Corporation owns, on behalf of the U.S. Government, 50 percent of SIBC, a subsidiary of The Federal Bridge
Corporation Ltd., a federal Crown Corporation of Canada. Ownership consists of debenture bonds payable to the
Corporation with face values totaling $8,000. The net annual income from the SIBC, after all operating expenses, is
divided equally between both parties. The Corporation's portion, if any, is retained in escrow by SIBC to fund
structural repair costs to the South Channel Bridge as provided in the Corporation's enabling act. Any revenue
received by the Corporation will be returned to the U.S. Treasury as miscellaneous receipts. No revenue from the
SIBC has been received since 1961.




                                                                                         Fiscal Year 2012 Annual Report   |   31
 NOTES TO FINANCIAL STATEMENTS




 Note 7. Other Revenues
 Other revenues for the years ended September 30, 2012 and 2011 consist of the following:


                                                                                              2012              2011
                                          Concession operations                          $     637,284     $      480,976
                                          Pleasure craft/non-commercial tolls                  104,451            111,824
                                          Miscellaneous                                         63,665             90,041
                                          Rental of administration building                     51,849             51,140
                                          Vessel services                                         1,200             4,512
                                          Gain on property disposals                              1,151            10,870
                                          Shippers’ payments for damages to locks, net               866           10,668
                                                   Total                                 $     860,466     $      760,031


 Shippers' payments for damages are reported net of direct materials and direct labor costs. Reimbursements for direct
 materials and direct labor are recorded as reductions of the related expense accounts.



 Note 8. Operating Expenses by Object Class
 Operating expenses by object class for the years ended September 30, 2012 and 2011 are as follows:


                                                                                              2012              2011
                                          Personnel services and benefits                $   12,634,770    $ 13,117,669
                                          Contractual services                                3,967,515        11,552,392
                                          Supplies and materials                               658,608           825,989
                                          Travel and transportation                            221,499           230,116
                                          Rental, communications and utilities                 216,631           473,743
                                          Equipment not capitalized                            119,514           141,833
                                          Printing and reproduction                             20,710            14,655
                                          Loss on property disposals                              2,301                 ­
                                                   Subtotal                                  17,841,548        26,356,397
                                          Depreciation expense                                2,811,291         2,614,314
                                          Imputed expenses                                     899,133          1,016,146
                                                   Total operating expenses              $   21,551,972    $ 29,986,857


32   |   Saint Lawrence Seaway Development Corporation
SECTION                                                                                NOTES TO FINANCIAL STATEMENTS




Note 9. Retirement Plans
Retirement Plans consist of the Civil Service Retirement System (CSRS) and the Federal Employees Retirement
System (FERS). FERS went into effect, pursuant to Public Law 99-335, on January 1, 1987. Employees hired after
December 31, 1983 are automatically covered by FERS and Social Security while employees hired prior to January 1,
1984 elected to either join FERS and Social Security or remain in CSRS. A primary feature of FERS is that it offers a
savings plan to which the Corporation automatically contributes 1 percent of pay and matches any employee
contributions up to an additional 4 percent of pay. For employees hired since December 31, 1983, the Corporation also
contributes the employer's matching share for Social Security.
The Corporation paid contributions to the retirement plans and Social Security for the years ended September 30,
2012 and 2011 as follows:


                                                                                       2012                    2011
                                 Federal Employees Retirement System:
                                          Automatic contributions                 $    1,012,072         $      968,568
                                          Matching contributions                        267,229                 264,546
                                 Social Security                                        502,996                 505,330
                                 Civil Service Retirement System                          95,754                108,152
                                          Total                                   $    1,878,051         $    1,846,596


Effective with FY 1997, the Corporation recognizes and records the cost of pensions and other post-retirement
benefits during employees’ active years of service, based on cost factors provided by the Office of Personnel
Management (OPM). These costs are recorded as both an expense paid by another entity and an imputed financing
source to the receiving entity; therefore, they offset each other with no impact upon the Corporation's net position. The
imputed financing and offsetting imputed expense amounts for the years ended September 30, 2012 and 2011 were
$899,133 and $1,016,146, respectively.




                                                                                           Fiscal Year 2012 Annual Report   |   33
 NOTES TO FINANCIAL STATEMENTS




 Note 10. Related Party Transactions
 The Corporation receives rental payments for office space at its administration building in Massena, New York. For
 the years ended September 30, 2012 and 2011, revenue totaled $47,394 and $46,813 for space provided to the U.S.
 Coast Guard and the Internal Revenue Service.
 The Corporation made rental payments to the General Services Administration for its Washington, D.C. office totaling
 $305,479 for fiscal year 2011. Effective October 1, 2011, the Corporation relocated its offices under the terms of an
 Intra-agency Agreement (IAA) with the Federal Aviation Administration. The fiscal year 2012 costs of $318,339 are
 included in the reimbursable agreements listed below.
 The Corporation has entered into reimbursable agreements with certain federal agencies to provide services and
 equipment to the Corporation. Reimbursable agreements with federal agencies for FY 2012 and FY 2011 were as
 follows:

                                          Department                                         2012                 2011
                                          Federal Aviation Administration                $          330,345   $           13,916
                                          Office of the Secretary of Transportation                  50,283               58,063
                                          Federal Highway Administration                             40,979               50,922
                                          Volpe National Transportation Systems Center               10,000               28,000
                                          Department of Commerce                                      9,065                9,653
                                          General Services Administration                             7,975               10,349
                                          Office of Personnel Management                               969                 1,486
                                          Federal Occupational Health                                  325                  338
                                          U.S. Census Bureau                                              -                 982
                                          Department of Health & Human Services                           -                  84
                                          Department of Education                                         -                  27
                                          National Science Foundation                                     -                  25
                                                   Total                                 $          449,941   $          173,845


 Accounts payable and accrued payroll benefits at September 30, 2012 and 2011 include $1,557,543 and $1,827,584
 respectively, of amounts payable to the U.S. Government.
 In fiscal years 2012 and 2011, the Corporation accrued costs of $130,416 and $124,615, respectively, to the Canadian
 St. Lawrence Seaway Management Corporation for administrative services related to tolls and statistics.




34   |   Saint Lawrence Seaway Development Corporation
SECTION                                                                                NOTES TO FINANCIAL STATEMENTS




Note 11. Contingencies and Commitments
As of September 30, 2012, no material claims are pending against the Corporation. In addition to the current liabilities
at September 30, 2012 and 2011 there were undelivered orders and contracts amounting to $22,203,616 and
$16,388,442, respectively.
Through Fiscal Year 2011, the Corporation leased office space in Washington, D.C. from the General Services
Administration. Effective October 1, 2011, the Corporation relocated its leased offices in Washington, D.C. under the
terms of an IAA with the Federal Aviation Administration which is subject to annual funding obligations.
The Corporation also provides office space to several agencies under various lease agreements. The lease agreements
are cancelable.



Note 12. Statement of Budgetary Resources and Actual Expenses
The Statement of Budgetary Resources and Actual Expenses presents budget information as reported on the
Corporation's "Report on Budget Execution" SF 133 and reconciles accrued expenditures from that report to expenses
as reported in the accompanying financial statements.
Budget resources of $48,831,368 consist of the Corporation's unobligated balance of $15,393,330 brought forward
October 1, 2011, and reimbursements earned of $33,237,858, recoveries of prior year's obligations of $199,685, and a
transfer of unobligated balance from another federal account of $495 during FY 2012.




                                                                                          Fiscal Year 2012 Annual Report   |   35
 Advisory Board

 The SLSDC has a statutorily mandated five-member Advisory Board, which reviews the
 general polices of the SLSDC and advises the Administrator with respect to these polices.
 The members of the Advisory Board are appointed by the President with the advice and
 consent of the U.S. Senate. There are currently three active members sitting on the
 SLSDC’s Advisory Board:

     Charles E. “Trip” Dorkey, III            New York, N.Y.
     Wenona T. Singel                         East Lansing, Mich.
     David J. McMillan                        Duluth, Minn.




 Organizational Chart



                                                               ADMINISTRATOR                            ADVISORY BOARD


                              CHIEF COUNSEL                         DEPUTY
                                                                 ADMINISTRATOR




                                                                                                  ASSOCIATE
                                      ASSOCIATE
      OFFICE OF BUDGET                                         OFFICE OF CONGRESSIONAL        ADMINISTRATOR FOR              OFFICE OF TRADE
                                  ADMINISTRATOR FOR
       AND PROGRAMS                                              AND PUBLIC RELATIONS         STRATEGIC PLANNING              DEVELOPMENT
                                  SEAWAY OPERATIONS
                                                                                                AND PROGRAMS




                                     OFFICE OF FINANCIAL
                                                                              OFFICE OF ENGINEERING        OFFICE OF LOCK OPERATIONS
                                      MANAGEMENT AND
                                                                                AND MAINTENANCE              AND MARINE SERVICES
                                       ADMINISTRATION




36     |   Saint Lawrence Seaway Development Corporation
Contacts



WASHINGTON, D.C. OFFICE                                         MASSENA, N.Y. OFFICE
Administrator                                  (202) 366-0091   Associate Administrator for Seaway Operations   (315) 764-3209
Deputy Administrator                           (202) 366-0105   Associate Administrator for Strategic
Chief of Staff                                 (202) 366-0107    Planning and Programs                          (315) 764-3211
Office of Congressional and Public Relations   (202) 366-6114   Chief Counsel                                   (315) 764-3231
Trade Development                              (202) 366-5418   Chief Financial Officer                         (315) 764-3273
Budget and Programs                            (202) 366-8982   Human Resources                                 (315) 764-3230
                                                                Engineering and Maintenance                     (315) 764-3251
Facsimile Number                                                Lock Operations and Marine Services             (315) 764-3294
Washington, D.C. Office                        (202) 366-7147   Lock Operations (after hours)                   (315) 764-3292

                                                                Facsimile Numbers
                                                                Administration Building                         (315) 764-3235
                                                                Maintenance Building                            (315) 764-3258
                                                                Eisenhower Lock                                 (315) 764-3250
www.greatlakes-seaway.com                                       Operations and Maintenance                      (315) 764-3242
www.facebook.com/usdotslsdc
slsdc@dot.gov
        U.S. Department of Transportation
 
 

Saint Lawrence Seaway Development Corporation
 
 

                (800) 785-2779


          www.greatlakes-seaway.com
 
 

